Memorandum from the Office of the Inspector General



October 15, 2009

Kimberly S. Greene, WT 7B-K

REQUEST FOR FINAL ACTION – AUDIT 2008-12037 – DISTRIBUTOR REVIEW OF
BOLIVAR ENERGY AUTHORITY



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, or wish to discuss our findings, please contact Melissa M.
Neusel, Project Manager, at (865) 633-7357 or Jill M. Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430. We appreciate the courtesy
and cooperation received from your staff during the audit.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

MMN:JP
Attachment
cc (Attachment):
      Steve Byone, WT 4B-K
      Peyton T. Hairston Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      John E. Long Jr., WT 7B-K
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      John M. Thomas III, WT 4B-K
      John G. Trawick, WT 3D-K
      OIG File No. 2008-12037
Office of the Inspector General      Audit Report
                                  To the Chief Financial Officer
                                  and Executive Vice President,
                                  Financial Services




DISTRIBUTOR REVIEW
OF BOLIVAR ENERGY
AUTHORITY




Audit Team                                        Audit 2008-12037
Melissa M. Neusel                                 October 15, 2009
Laura E. Huffine
Stephanie L. Simmons
Jennifer R. Torregiano
Office of the Inspector General                                                                      Audit Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ........................................................................................................ 3

   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO
   MEMBERS OF THE SAME RATE CLASS ....................................................... 3

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 5

   CONTRACT COMPLIANCE ISSUES ............................................................... 7

   DISTRIBUTOR INTERNAL CONTROL ISSUES .............................................. 9

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 10

RECOMMENDATIONS ................................................................................ 13


APPENDICES
A. LETTER DATED SEPTEMBER 23, 2009, FROM JOHN FORTUNE TO
   MELISSA NEUSEL

B. MEMORANDUM DATED SEPTEMBER 29, 2009, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN




Audit 2008-12037
                                                                               

                                                                             October 2009
                                TVA Office of
                                the Inspector General                     Audit 2008-12037
                                                                          Bolivar Energy Authority
                                Why the OIG Did This
                                Review                                    What the OIG Found
The OIG performed a review of the Bolivar Energy                          Our review of Bolivar found no material issues related to use of
Authority (Bolivar), which is a distributor for TVA power                 revenues for approved purposes; however, improvements were
based in Bolivar, Tennessee. Annual revenues were                         needed in the following areas:
approximately $22.7 million in fiscal year 2008. TVA relies
on distributors to self-report customer usage and                        •   Customer Classification and Metering – We identified issues
subsequently the amount owed to TVA (Schedule 1).                            that could impact the proper reporting of electric sales and the
Customers are generally classified as residential,                           ability to ensure nondiscrimination in providing power to members
commercial, and manufacturing. Within these                                  of the same rate class. Specifically, we noted customers (1) not
classifications are various rate classes based on the                        being properly classified, (2) with energy usage in excess of
customer type and usage.                                                     15,000 kWh but not measured for demand,i and (3) where
                                                                             estimates were used to determine their bill for 24 months or more.
The objective of the review was to determine compliance
with key provisions of the power contract between TVA and                    We were unable to estimate the monetary effect of all of the issues
Bolivar including (1) proper reporting of electric sales by                  because, in some instances, information was not available;
customer class to facilitate proper revenue recognition and                  however, for those where information was available, the monetary
billing by TVA; (2) nondiscrimination in providing power to                  effect on Bolivar and TVA was not material. 
members of the same rate class; and (3) use of revenues,                 •   Contract Compliance – We identified three areas where Bolivar
including any surplus, for approved purposes such as                         was not meeting power contract requirements. Specifically, we
operating expenses, debt service, tax equivalent payments,
                                                                             found (1) co-mingling of electric department funds with other
and reasonable reserves for renewals, replacements, and
                                                                             service department funds, (2) inaccurate allocation of costs
contingencies.
                                                                             between departments, and (3) customer contracts were not in
What the OIG Recommends                                                      place for all customers with demand above 50 kW.

We recommend the Chief Financial Officer (CFO) work with                 •   Distributor Internal Controls – We noted four areas where
Bolivar to (1) remediate classification and metering issues                  Bolivar could strengthen its internal controls. Specifically, we
and institute controls to prevent the issues from recurring,                 noted weaknesses regarding (1) the accuracy of data entered into
(2) comply with contract provisions related to proper                        the billing system for contract demand, (2) monitoring of manual
allocation of joint costs and customer contracts, and                        changes, (3) monitoring of negative usage situations, and
(3) strengthen its internal controls. In addition, the CFO                   (4) monitoring repetitive instances of zero usage for individual
should establish a process to document approval of                           accounts. 
distributor customer's credit applications. We requested
                                                                          In addition, we found Bolivar had more than enough cash on hand to
and received written comments on a draft of this report
from Bolivar and TVA. Their comments are discussed later                  cover planned capital projects and provide a cash reserve. The cash
in this report and reproduced in their entirety in Appendices             reserve after planned capital projects was about 12 percent. While
to the report.                                                            TVA has established guidelines to determine if a distributor has
                                                                          adequate cash reserves (cash ratio of 5 percent to 8 percent), TVA
In separate reports issued on other distributors in May and               has not established guidelines to determine if a distributor's cash
August 2009, TVA responded to issues also found at                        reserves are excessive. Based on prior distributor audit findings, TVA
Bolivar related to (1) contracts for customers whose
                                                                          is in the process of defining criteria for determining when a
demand exceeds 50 kW, (2) guidance for distributors on
                                                                          distributor's cash reserves are excessive.
cash reserves, (3) performing joint cost studies, and
(4) providing guidance on when a demand meter is                          Finally, we identified certain opportunities to enhance TVA oversight
required. TVA does not plan to take action regarding                      of the distributors. Specifically, we noted TVA has not (1) performed a
co-mingling of electric and nonelectric funds, another issue              joint cost study in over 20 years and (2) adequately defined the
we found at Bolivar and in previous audits; therefore, we                 process required to document approval of Small Manufacturing
suggest the power contract be modified.                                   Credits. TVA is in the process of addressing a finding from a previous
                                                                          review that we also found at Bolivar related to when a demand meter
For more information, contact Melissa M. Neusel, Project Manager,         is required.
at (865) 633-7357 or Jill M. Matthews, Deputy Assistant Inspector
General, Audits and Support, at (865) 633-7430.



                                                                    
   i
            According to Bolivar personnel, a customer may not require a demand meter because their electrical configuration (service entrance and
            transformers) would not allow a demand greater than 50 kW to be realized. There was no evidence to determine which customers could be
            in this situation. 
                                                                                                                                        Page i
         
Office of the Inspector General                                                                   Audit Report 


BACKGROUND
Bolivar Energy Authority (Bolivar) is a distributor for Tennessee Valley Authority
(TVA) power based in Bolivar, Tennessee, with revenues from electric sales of
approximately $22.7 million in fiscal year (FY) 2008. TVA relies on distributors to
report customer usage and subsequently the amount owed to TVA (Schedule 1).
Customers are generally classified as residential, commercial, and
manufacturing. Within these classifications are various rate classes based on
the customer type and usage. Table 1 shows the customer mix for Bolivar as of
June 2008.

                                          Bolivar's Customer Mix as of June 2008

                                                               Number of                      Kilowatt
         Customer Classification                               Customers      Revenue        Hours Sold
    Residential                                                      9,021   $12,820,665      147,421,312
    General Power – 50 kW & Under                                    2,161     2,452,841        22,982,926
    (Commercial)
    General Power – Over 50 kW                                        112      6,728,869        84,295,903
    (Commercial or Manufacturing)
    Street and Athletic                                                14       130,327          1,036,371
    Outdoor Lighting1                                                  29       545,253          3,902,309

     Total                                                          11,337   $22,677,955      259,638,821
                                                                                                   Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Bolivar, like many other distributors, outsources its billing and
invoice processing to a third-party processor, Central Service Association (CSA).
Bolivar uses CSA systems to establish and set up new customers, input
customer meter information, perform the monthly billing process, and execute
customer account maintenance. Additionally, CSA provides Bolivar with the
management reporting (e.g., exception reports) designed to ensure the accuracy
and completeness of the customer invoice and the purchased power invoice
(Schedule 1) to TVA. All other accounting and finance responsibilities are done
by Bolivar, which has a Board of Directors, and a President/CEO providing
oversight and a manager and accountant managing the daily activities. Bolivar
does not have any nonelectric business interests. However, Bolivar does provide
billing and collection services for other Bolivar utility services.




                                                            
1
    This customer count represents those customers who only have outdoor lighting accounts with Bolivar.
    Another 4,910 customers had outdoor lighting accounts as well as accounts for other services with Bolivar
    at June 30, 2008. The "Kilowatt Hours Sold" amounts include all kilowatt hours for all accounts, i.e., both
    Outdoor Lighting categories.
Audit 2008-12037                                                                                        Page 1
Office of the Inspector General                                             Audit Report 


OBJECTIVE, SCOPE, AND METHODOLOGY 
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Bolivar including:

•   Proper reporting of electricity sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
•   Nondiscrimination in providing electricity to members of the same rate class.
•   Use of revenues, including any surplus, for approved purposes such as:
    − Operating expenses;
    − Debt service;
    − Tax equivalent payments; and
    − Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

•   Obtained Bolivar electronic billing information from CSA for the audit period.
    The information was not complete because CSA does not maintain historical
    information for inactive customers. We used the information available to
    generate reports of exceptions related to classification and metering and
    conducted further review of documentation or discussed with management.
•   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
•   Determined through inquiry and review of documentation whether Bolivar had
    any nonelectric, system-related business interests supported by electric
    system funds.
•   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
•   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
•   Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted in April through July 2009. This audit was conducted in
accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. In performing this audit, nothing came to our attention that indicated
noncompliance with applicable laws and regulations.
Audit 2008-12037                                                                   Page 2
Office of the Inspector General                                                                 Audit Report 


FINDINGS
Our review of Bolivar found no material issues related to use of revenues for
approved purposes. However, we found improvements were needed in certain
areas. Specifically, we found customer classification and metering issues that
could result in (1) improper reporting of electric sales and (2) discrimination in
providing power to members of the same rate class. In addition, we found
Bolivar had more than enough cash on hand to cover planned capital projects
and provide a cash reserve of about 12 percent. While TVA has established
guidelines to determine if a distributor has adequate cash reserves (cash ratio of
5 percent to 8 percent), TVA has not established guidelines to determine if a
distributor's cash reserves are excessive.

We also found improvements were needed to (1) comply with contract provisions
regarding the co-mingling of funds; allocation of costs between departments; and
customer contracts and (2) improve Bolivar's internal controls related to accuracy
of contract demand data entered in the system; monitoring of manual data
changes; monitoring of negative usage (kWh) amounts in billing data; and
monitoring repetitive instances of zero usage. Finally, we have identified certain
opportunities to enhance TVA oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO MEMBERS
OF THE SAME RATE CLASS
As discussed below, we identified issues involving the classification of customers
and metering which could impact the proper reporting of electric sales. In
addition, these issues impact the ability to ensure nondiscrimination in providing
power to members of the same rate class.2 We were unable to estimate the
monetary effect of all of the issues because, in some instances, information was
not available; however, for those where information was available, the monetary
effect on Bolivar and TVA was not material. Correcting classification and
metering issues is nonetheless important to ensure all customers are placed in
the correct rate classification and charged the same rate as other customers with
similar circumstances.

Customer Classification Issues
We found seven customers that were not classified properly during a portion of
our audit period. One commercial customer was misclassified within the power
contract's General Power Rate – Schedule GSA. The GSA schedule is divided
into three parts—Part 1, Part 2, and Part 3—based on the electric usage and


                                                            
2
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Bolivar which states that
    "power purchased hereunder shall be sold and distributed to the ultimate consumer without discrimination
    among consumers of the same class and that no discriminatory rate, rebate, or other special concession
    will be made or given to any consumer, directly or indirectly."
Audit 2008-12037                                                                                     Page 3
Office of the Inspector General                                                                       Audit Report 


demand.3 The remaining six customers were misclassified as residential
customers. The monetary impact of the classification issues below was not
material to Bolivar or TVA. Specifically, we noted:

•      One customer was classified as GSA Part 14 instead of GSA Part 2.
       According to the General Power Rate – Schedule GSA, a customer should be
       classified as a GSA Part 2 if (1) usage is over 15,000 kWh, (2) metered
       demand exceeds 50 kW, or (3) contract demand is greater than 50 kW.
       When a customer is moved to GSA Part 2, they must remain at that
       classification for 12 months after the usage or demand meets the Part 2
       criteria. This customer had metered demand of 50.2 kW in August 2006;
       therefore, the customer should have been classified as a GSA Part 2 for the
       next 12 months. Based on information provided by billing agency personnel,
       the legacy CSA system used by Bolivar does not change a customer from
       GSA Part 1 to GSA Part 2 based on metered demand until after demand
       exceeds 50.499 kW rather than the 50 kW as stated by the GSA Part 2 rate
       schedule. Bolivar personnel were not aware the threshold for metered
       demand in the CSA system was 50.499 kW rather than 50.01 kW. In August
       2007 the customer's demand was 53.3 kW, thereby meeting the GSA Part 2
       demand requirement and was correctly classified as a GSA Part 2. The
       customer was classified correctly for the remainder of the audit period.
•      Six customers were classified as Residential instead of GSA Part 1.
       According to the Residential Rate Schedule, this rate shall apply only to a
       single-family dwelling where the major use of electricity is for domestic
       purposes. We found:
       − Four customers were property management customers whose rental
         property accounts had reverted back to the property management name.
                                                            
3
     Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time known
    as a demand interval. Demand intervals are usually 15 or 30 minutes (Engineering Tech Tips, December
    2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service, Technology
    & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm).
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as "the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW."
4
    Under the General Power Rate – Schedule GSA between Bolivar and TVA, customers are classified as
    GSA Part 1 or GSA Part 2 based on the following requirements:
    • GSA Part 1 – If (a) the higher of (i) the customer's currently effective contract demand, if any, or (ii) its
      highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer's
      monthly energy takings for any month during such period do not exceed 15,000 kWh.
    • GSA Part 2 – If (a) the higher of (i) the customer's currently effective contract demand or (ii) its highest
      billing demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or
      (b) if the customer's billing demand is less than 50 kW and its energy takings for any month during such
      period exceed 15,000 kWh.
    • GSA Part 3 – If the higher of (a) the customer's currently effective contract demand or (b) its highest
      billing demand during the latest 12-month period is greater than 1,000 kW.
Audit 2008-12037                                                                                            Page 4
Office of the Inspector General                                           Audit Report 


         According to Bolivar personnel, rental property is considered temporary
         service and should be charged at a commercial (GSA) rate when vacant
         and in the property management name.
    − Two customers were accounts for service other than Residential.
      According to Bolivar personnel, both of these customers were reclassified
      to the correct GSA rate based on our findings.

Metering Issues
In addition to the customer classification issues, our review of billing agency data
noted the following issues related to metering of customers at Bolivar. We were
unable to estimate the monetary effect because (1) demand meters were not in
place or (2) usage readings were not available which would provide information
to make the estimates. We found:

•   Twenty customers were classified as GSA Part 2 with energy usage in excess
    of 15,000 kWh but were not measured for demand. Under Part 2 of the GSA
    Resale Rate Schedule and the Wholesale rate schedule, there would be no
    effect on the revenues for TVA or the distributor unless customer demand
    exceeded 50 kW. Without demand meters in place, we could not determine if
    any of these customers would have exceeded 50 kW. According to Bolivar
    personnel, the maximum load that can be realized is determined by the
    electrical configuration of the customer (service entrance and transformers).
    Consequently, it is possible that a load in excess of 50 kW could not be
    realized, and therefore a demand meter would not be needed. However,
    Bolivar does not have the maximum load information for each customer on
    file, nor is it in the CSA system. A physical inspection would have to be
    performed for each customer in order to determine the maximum load limit.
•   Four customers were billed based on estimates instead of actual usage
    readings for 24 months or more. For two of these customers, once the
    meters were read, the practice of estimating the monthly bills resulted in the
    customers being charged for 2,500 kWh and 24,000 kWh, respectively, more
    than their actual usage. Actual readings on the other two customers had not
    been obtained since July 2006 and February 2007. According to Bolivar
    personnel, actual readings were obtained in May and July 2009 for these
    customers, and it was determined each had been overbilled. Bolivar does not
    have a formal policy defining the maximum time a meter reading can be
    estimated; however, we were informed the informal policy typically followed
    was to estimate usage for three to six months and then obtain an actual
    reading.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses; (2) debt service;
(3) tax equivalent payments; and (4) reasonable reserves for renewals,
replacements, and contingencies. While TVA has established guidelines to

Audit 2008-12037                                                               Page 5
Office of the Inspector General                                                                           Audit Report 


determine if a distributor has adequate cash reserves (cash ratio5 of 5 percent to
8 percent), TVA has not established guidelines to determine if a distributor's cash
reserves are excessive.

We found Bolivar had more than enough cash on hand to cover planned capital
projects and provide a cash reserve. As of June 30, 2008, Bolivar reported about
$2.8 million in its cash and cash equivalent accounts, and the cash reserve after
planned capital projects was about 12 percent.

Table 2 shows information about plans for major capital expenditures obtained
from Bolivar's office manager and our review of Bolivar's Board of Directors'
meeting minutes.

                                          Bolivar's Planned Capital Expenditures


                                       Capital Expenditure Plans                                   Project Cost
SCADA Completion                                                                                      $120,000
Mapping Completion                                                                                    $100,000
    Total Planned Expenditures Funded From Cash Reserves                                              $220,000
                                                                                                             Table 2

When compared to Bolivar's capital expenditure plans for the foreseeable future,
the balance in Bolivar's cash accounts was enough to pay for these items and
leave about $2.5 million as a reserve as shown in Table 3. Table 3 also shows
Bolivar's cash ratio percentage was about 13 percent before accounting for
planned capital expenditures and about 12 percent after accounting for them.

        Bolivar's Cash Accounts Compared to Planned Capital Expenditures


                                                        Cash and Cash       Planned Capital   Reserve After Planned
                                                         Equivalents         Expenditures      Capital Expenditures
FY 2008                                                        $2,755,412      $220,000            $2,535,412
Cash Ratio Percentage                                            12.6%                               11.6%
                                                                                                                Table 3

Discussions with Bolivar's management indicated the operating philosophy of
management was to use a conservative, generally debt-averse approach.




                                                            
5
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents
                            Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2008-12037                                                                                                 Page 6
Office of the Inspector General                                                                               Audit Report 


According to TVA records, over the past five years Bolivar was approved for rate
increases in 2003 and 2005. Table 4 shows the rate increases received by
Bolivar and the cash position and cash ratio at June 30 prior to the effective date
of the rate increase.

                       Bolivar's Rate Increases, Cash Position, and Cash Ratio

                                                                                           Rate Increase7
         Cash on Hand                                   Cash and Cash
       Equivalent to an 8%                               Equivalents6         Additional                    Effective
           Cash Ratio                                   and Cash Ratio        Revenue        Percent          Date
                $1,247,067                                     $1,487,995      $38,000        0.22%         10/1/2003
                                                               (CR = 9.6%)

                $1,307,314                                     $2,322,242     $488,559        2.75%         10/1/2005
                                                               (CR = 14.2%)
                                                                                                                Table 4

Coupled with this debt-averse philosophy, distributors consider cash reserves as
a hedge against the risks of unforeseen costs from an aging infrastructure (e.g.,
equipment failure), potential loss of revenue from the economic impact on
commercial and industrial customers, and unpredictable weather. Examples of
weather events8 TVA distributors have incurred include damage from (1) the
recent January 27, 2009, ice storm in Kentucky and Tennessee where about
130,000 of TVA distributor consumers lost their electricity and (2) tornados and
the impact of tropical storms, such as the 2005 damage to Mississippi systems
resulting from hurricane Katrina.

CONTRACT COMPLIANCE ISSUES
Our review noted three areas where Bolivar was not meeting the requirements of
the power contract with TVA. Specifically, we found: (1) co-mingling of electric
department funds with those of other service departments, (2) inaccurate
allocation of costs between service departments, and (3) customers with demand
above 50 kW without a contract. Discussion on each of these items follows.

Co-Mingling of Funds
Section 1, Purpose of Contract, of the power contract between Bolivar and TVA
states, "electric system funds and accounts shall not be mingled with other funds
or accounts of Municipality." Our review noted that cash collections for other
services are co-mingled with cash collections for electric services in the same
                                                            
6
    The cash and cash equivalents and cash ratio were computed based on information from Bolivar's annual
    report as of June 30 prior to the effective date of the rate increase.
7
    These are the rate increases requested by and approved for the distributor. These increases do not
    include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
    passed through to the customer by the distributor.
8
    After a severe weather event, utilities launch massive and costly round-the-clock restoration efforts. In
    addition to costs for miles of new wire, new poles, new transformers, and their own crews, utilities often
    have to pick up the bill for other utility crews providing assistance in the restoration effort.
Audit 2008-12037                                                                                                   Page 7
Office of the Inspector General                                           Audit Report 


bank account. Similarly, billings for electric and all other service departments are
recorded in the same receivable account. According to TVA personnel, TVA has
allowed the practice of the distributor using the same bank account(s) for all of
their business activities. Also, TVA has allowed a distributor, like Bolivar, to
perform billings for other departments' utility services and use one (electric)
general ledger to record the activities as long as the items are separately
accounted for each month. According to Bolivar personnel, customer payments
collected in one month are paid to the other service departments after the next
month's closing, which could be between 1 month to 1.5 months depending on
the customer's billing cycle.

The Bolivar financial statements at June 30, 2007, and June 30, 2008, included
cash for collections of other departments' services in the cash balances reported
as Electric Department Assets. In addition, June 30, 2007, and 2008 balances
shown on the financial statements in the receivables account "Customers'
Accounts" are $2,623,625 and $2,882,383, respectively, and include customer
receivables for services provided by other service departments.

In a separate report on another distributor issued in August 2009, we
recommended TVA work with the distributor and modify the collections process
to separate electric department funds from those of other service departments.
TVA management was satisfied the distributor's process accounted for the
collections separately in the general ledger and also accepted that payments to
the other service departments consistently lagged two months behind the actual
collections because of the billing process. As a result, TVA management plans
no action on this issue. Therefore, we suggested TVA consider modifying
Section 1 of the power contract during the formal implementation of a rate
change to no longer prohibit such actions.

Allocation of Joint Costs
We noted one instance in which Bolivar's accounting practices did not conform to
the power contract with TVA. Under the power contract, the distributor is allowed
to "use property and personnel jointly for the electric system and other
operations, subject to agreement between Municipality and TVA as to
appropriate allocations." Our review of allocations made during the audit period
found in certain instances the allocation percentages were not applied in
accordance with the last TVA joint cost allocation study, which occurred in 1986,
or applied consistently. As a result, we noted an error in the June 2008
allocations which resulted in a total overbilling to the City of $2,789 and an
overbilling to the County of $1,242.

Customer Contracts When Demand Exceeds 50kW
Under Bolivar's contract with TVA, all customers that exceed 50 kW monthly are
required to sign a formal contract. We randomly selected 33 accounts classified
as GSA Part 2 or higher in the billing agency data and found only 13 had a
contract with Bolivar. The contract includes a contract demand amount which is


Audit 2008-12037                                                               Page 8
Office of the Inspector General                                                                  Audit Report 


used in placing the customer in the correct classification, and the amount is also
entered into the CSA system for computing the customer's minimum bill.9

In a separate report on another distributor issued in May 2009, we recommended
the distributor review management reports listing customers that are above
50 kW hours without a contract and work with these customers to obtain signed
contracts. TVA agreed the Schedule of Rates and Charges requires distributors
to obtain contracts with all customers whose actual or contract demand exceeds
50 kW. However, TVA did not agree with our recommendation to review
management reports listing customers that are above 50 kW hours without a
contract and work with these customers to obtain signed contracts. Rather, TVA
management prefers to adjust the contract threshold requirement of 50 kW
(established in 1963) since requiring contracts with small commercial customers
is a time-consuming and difficult task which may provide little benefit for
distributors or the TVA system. According to TVA management, a
recommendation that a new and higher threshold be established as part of the
rate change process with the distributors will be presented to the Board. When
the rate change is put into effect, all retail customers above the new threshold will
be expected to have executed contracts. Target completion date will coincide
with the rate change efforts that are currently under way with the distributors and
is expected to be in place by October 2010.

DISTRIBUTOR INTERNAL CONTROL ISSUES
We identified four issues where Bolivar's internal controls could be strengthened
to improve completeness, accuracy, and validity of the billing data. Specifically,
we found improvements could be made in the (1) accuracy of contract demand
data entered in the system, (2) monitoring of manual data changes,
(3) monitoring of negative usage (kWh) amounts in billing data, and
(4) monitoring repetitive instances of zero usage amounts for individual accounts.

Contract Demand in Billing Agency System
We noted two issues related to entering contract demand in the billing system.
Specifically, while performing our review of customers with demand in excess of
50 kW (see "Customer Contracts When Demand Exceeds 50 kW" on the
previous page), we noted (1) one customer's contract demand was not entered
into the system correctly, and (2) one customer that did not have a contract had a
contract demand amount entered in the CSA system. According to Bolivar
personnel, both of these issues would be corrected.

Monitoring Manual Data Changes
Before October 2007, Bolivar personnel received and reviewed reports showing
manual changes made to customer information (e.g., classification number, rate

                                                            
9
    For example, a customer becomes a GSA Part 2 when either (1) the customer's currently effective
    contract demand or its highest billing demand during the latest 12-month period is more than 50 kW but
    less than 1,000 kW or (2) the customer's billing demand is less than 50 kW and its energy takings for any
    month during such period exceed 15,000 kWh.
Audit 2008-12037                                                                                       Page 9
Office of the Inspector General                                           Audit Report 


amounts, contract demand amounts, etc.) to ensure changes were appropriate
and accurate. After the new CSA system went into production in October 2007,
Bolivar personnel were unable to generate the report and, consequently, no
reviews of changes to customer information have been performed on a routine
basis. We contacted CSA and determined a similar report was available in the
new system and informed Bolivar personnel how to generate the report.

Monitoring Negative Usage Amounts
Two instances of negative usage (kWh) amounts were found during our review of
the billing data (70,000) and (3,334), and both were for GSA Part 1 customers.
The first instance was the result of entering the total adjustment amount needed
without considering the meter constant (multiplier) that is automatically applied in
the system. The second instance was the result of entering the adjustment
amount through two different screens (processes) which doubled the usage
adjustment amount. According to CSA personnel, the new system does not
currently have the capability of generating an exception report listing negative
usage amounts, nor does the system have edit checks to prevent negative usage
amounts from occurring. According to Bolivar personnel, only the kWh were
incorrect in the adjustments, and the dollar amounts were correct in both cases;
however, we did not verify the amounts since they would be immaterial to
Schedule 1.

Monitoring Zero Usage Amounts
One GSA Part 1 customer had "0" usage readings for 12 of the 24 months in the
audit period. Bolivar personnel determined the meter was broken and replaced
the meter during the 12th month with a 0 usage amount. A total of 4,335 kWh
were reported for the 12 months with readings (4 months before the meter was
replaced and 8 months after the replacement), or an average usage of
361.25 kWh per month. Bolivar personnel agreed the 0 usage should have been
noticed on a timelier basis. Bolivar did not make an adjustment to the customer's
bill to recover missed kWh.

TVA OVERSIGHT OPPORTUNITIES

We found opportunities to enhance TVA's oversight of the distributors.
Specifically, we noted TVA has not (1) performed a joint cost study in over
20 years even though the TVA Accountant's Reference Manual calls for one to
be performed every three to four years or when major changes occur that affect
joint operations; (2) adequately defined the process for granting the Small
Manufacturing Credit to ensure proper documentation, including evidence of
approval, is submitted and maintained; (3) provided adequate guidance on when
a demand meter is required; and (4) defined criteria for evaluating when a
distributor's cash is excessive.

 



Audit 2008-12037                                                              Page 10
Office of the Inspector General                                           Audit Report 


Joint Cost Allocation Studies
The current allocation of expenses between Bolivar and other City departments
is based on a joint cost allocation study prepared in 1986 and has not been
formally reviewed in the last 23 years. The joint cost allocation study needs to be
updated for Bolivar to ensure the proper allocations of expenses occur between
service departments. The TVA Accountant's Reference Manual states:

      (t)he electric system is regarded as a separate department even
      though, for efficiency and economy, some activities may be combined
      with other municipal or cooperative non-electric operations. Any
      shared costs would be allocated among departments on an equitable
      basis. Interdepartmental services are settled by monthly cash
      transfers. Allocations may be made based on space occupied;
      direction of effort, customers served or any other means that
      reasonably distribute costs among user departments. These cost
      allocations should be formally reviewed every three to four years by
      the distributor and TVA, or when major changes occur that affect joint
      operations.

In a separate report on another distributor issued in August 2009, we
recommended TVA implement procedures to perform joint cost studies with each
distributor that shares costs with other entities at least every three to four years
as required by the TVA Accountant's Reference Manual. TVA management
agreed the studies help allocate costs correctly, but stated they were very labor
intensive. TVA stated they will work toward implementing the studies as
additional resources are hired. Target date to begin the studies is January 2010.

Small Manufacturing Credit Certification Documentation
We noted one Bolivar customer was receiving the Small Manufacturing Credit
(SMC). This customer originally received credit under a previous TVA program,
the Large Manufacturer Bill Credit (LMBC) agreement, which was grandfathered
into the SMC program. The LMBC required each customer receiving the credit to
have completed an application form prior to receiving the credit and the
application be approved by TVA. This was required to verify the (1) customer's
contract demand would fall between 1,000 kW and 5,000 kW and (2) company
had a Standard Industrial Classification code which fell between 20 and 39,
inclusive, to qualify for the program. The LMBC was supplemented and
amended in October 2003 to provide for revised and extended manufacturing
credits for small manufacturing loads. This amendment became known as the
SMC.

We obtained a copy of the application from the Distributor, signed by the
customer on October 21, 2003, requesting the SMC credit be granted. The
LMBC agreement states, "It is understood and agreed that credits shall not be
allowed by Distributor for any account until a completed application is received
and approved by TVA." The "Manufacturing Bill Credit Program" application form
does not have an approval/signature line for a TVA representative. We were
unable to locate any evidence that TVA approved this application.  
Audit 2008-12037                                                               Page 11
Office of the Inspector General                                           Audit Report 


No Guidance as to When a Demand Meter is Required
TVA could provide additional guidance on when installation of a demand meter is
required. The GSA rate schedule indicates customers should be moved from
GSA Part 1 to GSA Part 2 when their usage exceeds 15,000 kWh during any
month. While GSA Part 1 customers are only billed for energy usage, GSA
Part 2 customers are to be billed for any demand that exceeds 50 kW. However,
TVA has not provided guidance to the distributors to indicate (1) at what point a
GSA Part 2 customer should be required to have a meter that measures
demand, (2) how often line monitors should be used to test whether a customer
is nearing or exceeding the 50 kW demand threshold, or (3) what documentation
should exist for GSA Part 2 customers to provide justification for why a demand
meter does not need to be installed.

TVA currently performs an annual "true up" to account for distribution losses (i.e.,
the difference between kWhs used (as reported by the distributor on Schedule 1)
and the kWhs delivered to the distributor by TVA). The distribution loss factor is
calculated on the difference of kWhs but is applied to both kWh and kW demand
because a similar calculation cannot be performed for kW demand. By issuing
guidance as to when demand meters should be installed at distributor customers,
TVA could increase the accuracy of the reporting of end-user demand and
receive payment for demand not currently being reported.

In a separate report on another distributor issued in August 2009, we
recommended TVA develop guidance to indicate when a distributor should install
demand meters for GSA Part 2 customers. TVA management stated guidance
would be provided to all distributors to evaluate the installation of a demand
meter once a customer's monthly usage exceeds 25,000 kWh since it is probable
that such a customer would meet the 50 kW thresholds for demand charges for
GSA Part 2 customers. TVA management also indicated a distributor should
consider factors such as the nature of the customer's business, operating
patterns, and electrical equipment and building specifications when considering
the installation of a demand meter.

No Criteria for Evaluating When a Distributor's Cash is Excessive
While TVA has established guidelines to determine if a distributor has adequate
cash reserves (cash ratio of 5 percent to 8 percent), TVA has not established
guidelines to determine if a distributor's cash reserves are excessive. TVA uses
the cash ratio as one of the factors in determining if a rate increase is warranted
for a distributor. However, the lack of defined criteria identifying when a
distributor may have more than adequate cash on hand could negatively impact
TVA's analysis regarding whether (1) a distributor's rates should be lower or
(2) an additional rate review may be warranted.

In separate reports issued on other distributors in May 2009, we recommended
TVA develop criteria to be used in determining whether a distributor's cash
reserves are excessive and incorporate the criteria into the rate setting process.
TVA management agreed and will make recommendations to the TVA Board that

Audit 2008-12037                                                              Page 12
Office of the Inspector General                                           Audit Report 


additional financial metrics be employed for purposes of administering the resale
rate provisions in Section 5 of the wholesale power contracts. The need to
consider cash reserves will be included in TVA management's recommendations
to the Board. A change in the current guidelines to include these additional
financial metrics requires Board action. Target completion date is December
2010.


RECOMMENDATIONS
We recommend the Chief Financial Officer (CFO) work with Bolivar to improve
compliance with the contract. Specifically, Bolivar should:

1.   Develop controls to reduce the likelihood of a customer's rate classification
     being changed in a manner that does not comply with the rate schedules.

     Bolivar's Response – Bolivar stated electrical meters are required by law to
     be accurate within 2 percent, plus or minus, and to change classification and
     drastically increase costs for an amount which is not within the required
     accuracy range would be excessive and indefensible. Therefore, the billing
     agency software rounds readings 50.499 kW and below to 50 kW and
     readings of 50.5 kW to 51 kW. Bolivar also stated TVA is aware of the
     process, and no action is warranted. See Appendix A for Bolivar's complete
     response.

     TVA Management's Comments – The CFO agreed with the
     recommendation and noted Bolivar is working with the billing agency to
     resolve classification and billing issues. See Appendix B for TVA's complete
     response.

     Auditor's Response – The Office of the Inspector General (OIG) agrees
     there is a 2 percent accuracy range for meters; however, the finding listed
     under "Customer Classification Issues" pertains to customers' classification
     as determined by the billing agency's software, not the accuracy of the
     customers' meters. Our finding shows the billing agency's software does not
     correctly classify customers based on the criteria established in the approved
     power rate schedules. Therefore, the OIG maintains Bolivar should work
     with the billing agency to correct the logic in the software so all customers
     will be accurately classified in accordance with the criteria in the power rate
     schedules at all times.

2.   Monitor customer accounts for rental addresses to more consistently treat all
     customers of the same class in the same manner.

     Bolivar's Response – Bolivar agreed the customers classified as residential
     instead of GSA Part 1 should be classified as GSA Part 1 and stated these
     customers had been changed. Bolivar also stated six of the customers were
Audit 2008-12037                                                              Page 13
Office of the Inspector General                                          Audit Report 


     misclassified due to human error, and the staff had been made aware of the
     issues. See Appendix A for Bolivar's complete response.

     TVA Management's Comments – The CFO agreed the power contract
     requires consistent treatment of customers and noted Bolivar worked with
     the billing agency and resolved the classification issues. See Appendix B for
     TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken but believes
     monitoring customer accounts for residential addresses will reduce the risk of
     similar instances recurring in the future.

3.   Implement a procedure to either routinely monitor demand or place demand
     meters at customer service addresses where usage has exceeded
     15,000 kWh.

     Bolivar's Response – Bolivar stated Engineering meets with every new
     customer to determine service entrance size and connected load. If the
     service entrance is not large enough to carry a load in excess of 50 kW or
     the transformer serving this customer is incapable of carrying a 50 kW load,
     no demand meter is installed. Should load be added to any customer which
     could result in a demand over 50 kW, an entrance change and electrical
     inspection by the Electrical Inspector of the State of Tennessee is required.
     Permits for this inspection can only be obtained at the office of Bolivar
     Energy Authority, and when such permits are issued, the Bolivar Energy
     Authority Engineering staff visits the site and meets with the electrician to
     determine if a 50 kW demand can be achieved. See Appendix A for Bolivar's
     complete response.

     TVA Management's Comments – The CFO agreed distributors should
     monitor demand to ensure compliance with the GSA rate schedule
     requirements and noted Bolivar had a process in place to determine delivery
     points that are capable of pulling loads in excess of 50 kW. Therefore, TVA
     management feels no further action is needed. See Appendix B for TVA's
     complete response.

     Auditor's Response – The OIG agrees a customer could use more than
     15,000 kWh in a month without exceeding 50 kW or, conversely, exceed
     50 kW without using more than 15,000 kWh in a month. The OIG also
     concurs with Bolivar's actions to meet with every new customer to determine
     service entrance size and connected load requirements. However, we also
     believe the service entrance size and connected load requirements for all
     customers (new and old) should be documented in a manner that is readily
     available and can be accessed, monitored, and modified (i.e., recorded in the
     billing agency system). This will allow Bolivar personnel to more easily
     identify and monitor customers near the usage and demand thresholds and
     determine when a customer needs to have a demand meter installed.

Audit 2008-12037                                                             Page 14
Office of the Inspector General                                            Audit Report 


4.   Work with the billing agency and implement a mechanism in the system
     (e.g., new field, standardized code in a comment field, etc.) to document the
     maximum load an account can pull in order to: (1) allow more efficient
     monitoring of the system's load requirements and (2) identify accounts that
     may need to have a demand meter installed.

     Bolivar's Response – Bolivar stated Engineering meets with every new
     customer to determine service entrance size and connected load. If the
     service entrance is not large enough to carry a load in excess of 50 kW or
     the transformer serving this customer is incapable of carrying a 50 kW load,
     no demand meter is installed. Should load be added to any customer which
     could result in a demand over 50 kW, an entrance change and electrical
     inspection by the Electrical Inspector of the State of Tennessee is required.
     Permits for this inspection can only be obtained at the office of Bolivar
     Energy Authority, and when such permits are issued, the Bolivar Energy
     Authority Engineering staff visits the site and meets with the electrician to
     determine if a 50 kW demand can be achieved. See Appendix A for Bolivar's
     complete response.

     TVA Management's Comments – The CFO stated that while implementing
     such a mechanism may result in an improvement to the Distributor's system,
     the power contract does not require such updates to the billing system. See
     Appendix B for TVA's complete response.

     Auditor's Response – The OIG agrees a customer could use more than
     15,000 kWh in a month without exceeding 50 kW or, conversely, exceed
     50 kW without using more than 15,000 kWh in a month. The OIG also
     concurs with Bolivar's actions to meet with every new customer to determine
     service entrance size and connected load. We also believe the service
     entrance size and connected load restrictions for all customers (new and old)
     should be documented in a manner that is readily available to be accessed,
     monitored, and modified. Therefore, we maintain Bolivar should work with
     the billing agency and implement a mechanism in the system (e.g., new filed,
     standardized code in a comment filed, etc.) to document the maximum load
     an account can pull in order to: (1) allow more efficient monitoring of the
     system's load requirements and (2) identify accounts that may need to have
     a demand meter installed.

5.   Implement a procedure to limit the number of months usage may be
     estimated, and require meters be read at least once every FY.

     Bolivar's Response – Bolivar stated BEA was denied access to the
     property which resulted in estimated billing for the four customers listed in
     the report. Bolivar also stated a practical method which ultimately results in
     access being granted is to give the customer a high estimated bill. Bolivar
     has since received keys to access the meters and stated no further action
     was warranted. See Appendix A for Bolivar's complete response.

Audit 2008-12037                                                               Page 15
Office of the Inspector General                                            Audit Report 


     TVA Management's Comments – The CFO agreed with the
     recommendation and noted Bolivar had corrected the accounts based on
     estimates. See Appendix B for TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken. However,
     we maintain Bolivar should implement a procedure to limit the number of
     months usage may be estimated and to require meters be read at least once
     every FY.

6.   Implement a procedure to ensure only customers with contracts have
     contract demand entered in the system and the correct amount is entered.

     Bolivar's Response – Bolivar did not address this recommendation in their
     response.

     TVA Management's Comments – The CFO agreed the Distributor should
     appropriately input data into the system and also noted Bolivar had corrected
     the two incorrect demand amounts. See Appendix B for TVA's complete
     response.

     Auditor's Response – The OIG maintains Bolivar should implement a
     procedure to ensure only customers with a contract have contract demand
     entered in the system and the correct amount is entered.

7.   Generate and review reports showing manual changes made to customer
     information to ensure updates were entered correctly in the system.

     Bolivar's Response – Bolivar stated that since October 2007 screens have
     been password-protected, and only key personnel with management
     clearance can make changes to data. Bolivar also stated they were working
     with the billing agency to get the report needed to check data changes. See
     Appendix A for Bolivar's complete response.

     TVA Management's Comments – The CFO agreed that while generating
     such a report may result in an improvement to the Distributor's system, the
     power contract does not require such a report. The CFO also noted the OIG
     was able to show Bolivar personnel how to get a report. See Appendix B for
     TVA's complete response.

     Auditor's Response – The OIG concurs with the actions taken, and no
     further action is necessary.

8.   Work with the billing agency to develop and implement a process (e.g.,
     generate an exception report, review specific screens, or add edit checks in
     the system, etc.) to notify the distributor of customers with negative usage or
     prevent negative usage from occurring.


Audit 2008-12037                                                               Page 16
Office of the Inspector General                                            Audit Report 


     Bolivar's Response – Bolivar stated that during the time of conversion from
     Legacy to CMB, the software picked up kWh billed differently if a meter
     constant was involved, and the new software addresses this issue. See
     Appendix A for Bolivar's complete response.

     TVA Management's Comments – The CFO agreed that while developing
     and implementing such a process may result in an improvement to the
     Distributor's system, the power contract does not require such a process.
     See Appendix B for TVA's complete response.

     Auditor's Response – The OIG recognizes there were issues in the
     conversion; however, we maintain Bolivar's internal controls would be
     strengthened by working with the billing agency to develop and implement a
     process to alert Bolivar when the data indicates negative usage. The OIG
     also recognizes the power contract does not require these specific
     processes. However, as a prudent business practice, distributors must
     maintain effective internal controls in order to (1) accurately bill their
     customers and (2) provide accurate information to TVA for calculation of the
     distributor's monthly power bill (Schedule 1).

9.   Work with the billing agency to develop (or improve) an exception report
     listing accounts with repetitive zero usage.

     Bolivar's Response – Bolivar stated the problem had been corrected and
     recognized the account should have been back billed. Bolivar also stated
     there were numerous accounts that have zero usage each month; therefore,
     a report showing zero usage would be useless because the person in the
     office would have no way of determining what is actually connected at the
     service. BEA meter readers are instructed to monitor possible metering
     errors while at the location, and the meter readers had been reminded of
     their responsibilities since human errors occur. See Appendix A for Bolivar's
     complete response.

     TVA Management's Comments – The CFO agreed that while generating
     such a report may result in an improvement to the Distributor's system, the
     power contract does not require such a process. See Appendix B for TVA's
     complete response.

     Auditor's Response – The OIG concurs with the actions taken; however,
     we also maintain an exception report listing accounts with repetitive zero
     usage would be beneficial, if not for the personnel in the office, then, for the
     meter readers. The meter reader could refer to the report while obtaining the
     reading and could determine whether the location appeared to be a seasonal
     account based on physical observation of the site. The OIG also recognizes
     the power contract does not require these specific processes. However, as
     a prudent business practice, distributors must maintain effective internal
     controls in order to (1) accurately bill their customers and (2) provide

Audit 2008-12037                                                               Page 17
Office of the Inspector General                                           Audit Report 


     accurate information to TVA for calculation of the distributor's monthly power
     bill (Schedule 1).

The CFO should:

10. Review process for granting credits and implement procedures to ensure
    proper documentation for each application is submitted, evidence of review
    and approval by the appropriate TVA personnel is included on the form, and
    the documentation is maintained at TVA in accordance with appropriate
    record retention policies.

     TVA Management's Comments – The CFO agreed with the
     recommendation and stated TVA will work with the Distributor to ensure
     future credit certifications have the TVA required signatures and are
     appropriately kept on file.

     Auditor's Response – The OIG concurs with the planned actions.

Additional Comments Provided

In their response to the draft report, Bolivar provided information for one of the
customer classification findings stating the customer had billed demand in excess
of 50 kW during the period in question. We verified and agree with Bolivar's
explanation and removed the finding and recommendation from the report.

Bolivar also provided statements about the findings in the following sections of
the report:

•   Use of Electric System Revenues
•   Co-Mingling of Funds
•   Allocation of Joint Costs
•   Customer Contracts When Demand Exceeds 50 kW

See Appendix A for Bolivar's complete response.




Audit 2008-12037                                                              Page 18
APPENDIX A
 Page 1 of 5
APPENDIX A
 Page 2 of 5
APPENDIX A
 Page 3 of 5
APPENDIX A
 Page 4 of 5
APPENDIX A
 Page 5 of 5
APPENDIX B
 Page 1 of 4
APPENDIX B
 Page 2 of 4
APPENDIX B
 Page 3 of 4
APPENDIX B
 Page 4 of 4
